Appendix A: Court of Appeals opinion, April 8, 2020

Court: UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
No. 19-10934 Summary Calendar
Parties: KHUE NGUYEN, Plaintiff - Appellant
v.
ESTATE OF THIN THI TA, Hai Phu Nguyen as Heir and Administrator; THAO
XUAN TA, Defendants - Appellees

Per Curiam: CLEMENT, ELROD, and OLDHAM, Circuit Judges

Case: 19-10934
Document: 00515401186 Page: 1 Date Filed: 04/30/2020
ORIGINAL
FILED
CTJ
Case4:18-cv-00801-A Document 145 Filed 04/30/20 Page lot3 PagelD 1270

April 30, 2020
KAREN MITCHELL

IN THE UNITED STATES COURT OF APBEAiLS.S. DISTRICT COURT
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10934
Summary Calendar

FILED
April 8, 2020
Lyle W. Cayce
Clerk

KHUE NGUYEN,
Plaintiff - Appellant
v.

ESTATE OF THIN THI TA, Hai Phu Nguyen as Heir and Administrator;
THAO XUAN TA,
Defendants - Appellees
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CV-801-A

Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM:*
Khue Nguyen sued various defendants for the breach of a Vietnamese
partnership agreement and the wrongful seizure of the business’s assets. The
district court granted summary judgment to defendants. We affirm.
I.
In 1982, Nguyen’s mother, Ha Thi Thu Thuy, entered into a partnership
with Ta Van Viet to establish a business in Vietnam named “Snow White.” Viet

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case: 19-10934

Document: 00515401186

Page: 2

Case 4:18-cv-00801-A Document 145 Filed 04/30/20

Date Filed: 04/30/2020

Page 2 of 3 PagelD 1271

No. 19-10934
died in 1989, and Thuy purchased his business interests from his heirs, the
defendants. Those heirs purported to evict Thuy from Snow White’s
manufacturing facility in November 2012, and they held onto the business’s
assets.
The same month, Thuy entered a dispute-resolution process operated by
the local Vietnamese government. That process was unsuccessful. Thuy later
assigned her interest in Snow White (including its assets, and any claims
against defendants) to Nguyen. And, in September 2018, Nguyen brought this
lawsuit in federal district court.
The district court granted summary judgment to defendants. Among
other things, the district court found Nguyen’s claims untimely. The district
court held that Texas’s statute of limitations applies to Nguyen’s Vietnameselaw causes of action—a holding the parties do not dispute on appeal. Under
Texas law, the district court found that the claims accrued no later than 2012.
And, because the most generous applicable limitations period was four years,
the claims were time-barred. Nguyen timely appealed. Reviewing the grant of
summary judgment de novo, see Morrow v. Meachum, 917 F.3d 870, 874 (5th
Cir. 2019), we agree with the district court.
II.
The longest statute of limitations applicable to Nguyen’s claims is the
four-year period for contract actions. See TEX. ClV. PRAC. & REM. CODE
16.004(a). In Texas, “[i]t is well-settled law that a breach of contract claim
accrues when the contract is breached.” Stine v. Stewart, 80 S.W.3d 586, 592
(Tex. 2002). As Nguyen concedes, the breach of the partnership agreement—
Thuy’s eviction from Snow White’s facility—took place in November 2012. That
is when the contract claims accrued. Those claims therefore became timebarred in November 2016, nearly two years before Nguyen filed this lawsuit.
2

Case: 19-10934

Document: 00515401186

Page: 3

Case 4:18-cv-00801-A Document 145 Filed 04/30/20

Date Filed: 04/30/2020

Page 3 of 3 PagelD 1272

No. 19-10934
Nguyen offers various reasons why the limitations period was tolled and
his claims are still timely. None has merit.
He first notes that equitable tolling is available when “a claimant
actively pursue[s] his judicial remedies but filed a defective pleading during
the statutory period, or where a complainant was induced or tricked by his
adversary’s misconduct into allowing filing deadlines to pass.” Bailey v.
Gardner, 154 S.W.3d 917, 920 (Tex. App.—Dallas 2005, no pet.). But he does
not claim that he filed a defective pleading during the four-year period, or that
he was tricked into filing late.
Nguyen also insists that the partnership contract governing Snow White
required the parties to submit their dispute to the local Vietnamese
government’s dispute-resolution procedure. In Nguyen’s view, this either
delayed accrual until after the Vietnamese procedure was finished or tolled the
limitation period during that procedure. But the contract provides only that
the parties must “[follow strictly all current laws and rulings of the State and
of the local government.” Even assuming that this clause, as a matter of
Vietnamese law, required submission to the local government’s disputeresolution procedure, there is no contractual provision that tolls the limitation
period while the proceedings were ongoing. And although Texas law provides
for the tolling of a limitation period when the plaintiff files a lawsuit, see Sun
v. Al’s Formal Wear of Houston, Inc., 14-96-01516-CV, 1998 WL 726479, at *6
(Tex. App.—Houston [14th Dist.] Oct. 15, 1998, no pet.), Nguyen cites no
Texas-law authority for tolling during non-judicial dispute resolution.
AFFIRMED.

3

Appendix B: Court of Appeals opinion, August 19, 2020

Court: UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
No. 19-10934 Summary Calendar
Parties: KHUE NGUYEN, Plaintiff - Appellant
v.
ESTATE OF THIN THI TA, Hai Phu Nguyen as Heir and Administrator; THAO
XUAN TA, Defendants - Appellees

Per Curiam: CLEMENT, ELROD, and OLDHAM, Circuit Judges

Case: 19-10934

Document: 00515533293

Page: 1

Date Filed: 08/19/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED
No. 19-10934
Summary Calendar

August 19, 2020
Lyle W. Cayce
Clerk

KHUE NGUYEN,
Plaintiff - Appellant
v.

ESTATE OF THIN THI TA, Hai Phu Nguyen as Heir and Administrator;
THAO XUAN TA,
Defendants - Appellees
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CV-801

ON PETITION FOR REHEARING AND REHEARING EN BANC
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM:*
No member of this panel nor judge in active service having requested
that the court be polled on rehearing en banc, the petition for rehearing en

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case: 19-10934

Document: 00515533293

Page: 2

Date Filed: 08/19/2020

No. 19-10934
banc is DENIED. The petition for panel rehearing is GRANTED. The previous
opinion is withdrawn and the following is substituted.
Khue Nguyen sued various defendants for the breach of a Vietnamese
partnership agreement and the wrongful seizure of the business’s assets. The
district court granted summary judgment to defendants. We affirm.
I.
In 1982, Nguyen’s mother, Ha Thi Thu Thuy, entered into a partnership
with Ta Van Viet to establish a business in Vietnam named “Snow White.” Viet
died in 1989, and Thuy purchased his business interests from his heirs, the
defendants. One of those heirs, Ngo Thi Ngoan, purported to evict Thuy from
Snow White’s manufacturing facility in November 2012. Ngoan held onto the
business’s assets. Despite Thuy’s requests, none of the heirs have agreed to
return the property.
Also in November 2012, Thuy entered a dispute-resolution process
operated by the local Vietnamese government. That process was unsuccessful.
Thuy later assigned her interest in Snow White (including its assets, and any
claims against defendants) to Nguyen. And, in September 2018, Nguyen
brought this lawsuit in federal district court.
The district court granted summary judgment to defendants. Among
other things, the district court found Nguyen’s claims untimely. The district
court held that Texas’s statute of limitations applies to Nguyen’s Vietnameselaw causes of action—a holding the parties do not dispute on appeal. Under
Texas law, the district court found that the claims accrued no later than 2012.
And, because the most generous applicable limitations period was four years,
the claims were time-barred. Nguyen timely appealed. Reviewing the grant of
summary judgment de novo, see Morrow v. Meachum, 917 F.3d 870, 874- (5th
Cir. 2019), we agree with the district court.
2

Case: 19-10934

Document: 00515533293

Page: 3

Date Filed: 08/19/2020

No. 19-10934
II.
The longest statute of limitations applicable to Nguyen’s claims is the
four-year period for contract actions. See Tex. Civ. PRAC. & REM. CODE
16.004(a). In Texas, “[i]t is well-settled law that a breach of contract claim
accrues when the contract is breached.” Stine v. Stewart, 80 S.W.3d 586, 592
(Tex. 2002). As Nguyen concedes, the breach of the partnership agreement—
Thuy’s eviction from Snow White’s facility by Ngoan—took place in November
2012. That is when the contract claims accrued. Those claims therefore became
time-barred in November 2016, nearly two years before Nguyen filed this
lawsuit.
Nguyen offers various reasons why the limitations period was tolled and
his claims are still timely. None has merit.
He first notes that equitable tolling is available when “a claimant
actively pursue[s] his judicial remedies but filed a defective pleading during
the statutory period, or where a complainant was induced or tricked by his
adversary’s misconduct into allowing filing deadlines to pass.” Bailey v.
Gardner, 154 S.W.3d 917, 920 (Tex. App.—Dallas 2005, no pet.). But he does
not claim that he filed a defective pleading during the four-year period, or that
he was tricked into filing late.
Nguyen also insists that the partnership contract governing Snow White
required the parties to submit their dispute to the local Vietnamese
government’s dispute-resolution procedure. In Nguyen’s view, this either
delayed accrual until after the Vietnamese procedure was finished or tolled the
limitation period during that procedure. But the contract provides only that
the parties must “[fjollow strictly all current laws and rulings of the State and
of the local government.” Even assuming that this clause, as a matter of
Vietnamese law, required submission to the local government’s disputeresolution procedure, there is no contractual provision that tolls the limitation
3

Case: 19-10934

Document: 00515533293

Page: 4

Date Filed: 08/19/2020

No. 19-10934
period while the proceedings were ongoing. And although Texas law provides
for the tolling of a limitation period when the plaintiff files a lawsuit, see Sun
v. Al’s Formal Wear of Houston, Inc., 14-96-01516-CV, 1998 WL 726479, at *6
(Tex. App.—Houston [14th Dist.] Oct. 15, 1998, no pet.), Nguyen cites no
Texas-law authority for tolling during non-judicial dispute resolution.
Finally, Nguyen asserts that the cause of action against the defendants
other than Ngoan accrued in 2017 (rather than 2012) when they refused to
hand over the property in contravention of a Vietnamese court order. But
Nguyen alleged in the district court that “all Defendants” had refused to return
Snow White and its assets during the pendency of the Vietnamese proceedings
“[f]rom 2013 until 2018.” Therefore, even assuming that the refusal to hand
over property created a cause of action separate from the 2012 breach-ofcontract claim, that separate cause of action accrued when it first occurred in
2013. Nguyen offers no basis in law—Vietnamese or Texan—for the court to
conclude that the 2017 refusal restarted or tolled the limitation period. This
putative separate cause of action therefore became time-barred in 2017, four
years after it accrued and one year before Nguyen filed his lawsuit.
AFFIRMED.

4

Appendix C: Court of Appeal - denied appellant’s motion for panel
rehearing and for rehearing en banc, file October 28, 2020

Court: UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
No. 19-10934
Parties: KHUE NGUYEN, Plaintiff - Appellant
v.
ESTATE OF THIN THI TA, Hai Phu Nguyen as Heir and Administrator; THAO
XUAN TA, Defendants - Appellees

OLDHAM, Circuit Judge

Case: 19-10934

Document: 00515618425

Page: 1

Date Filed: 10/28/2020

tHntteU States Court of Appeals
for tfje jFtftf) Ctrtutt
No. 19-10934
Khue Nguyen,
Plaintiff—Appellant,
versus
Estate of Thin Thi Ta, Hai Phu Nguyen as Heir and
Administrator; Thao Xuan Ta,
Defendants—Appellees.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CV-801
ORDER:
Appellant’s motion for leave to file petitions for panel rehearing and
for rehearing en banc out of time is DENIED. Appellant’s motion to recall
mandate to prevent injustice is also DENIED.

Andrew S. Oldham
United States Circuit Judge

Appendix D: District Court “final” judgment, August 2,2020

Court: United States District Court, Northern District of Texas, Fort Worth
Division
No. 4:18-CV-801-A
Parties: KHUE NGUYEN, Plaintiff
v.
ESTATE OF THIN THI TA (HAIPHU NGUYEN AS HEIR AND
ADMINISTRATOR) ET AL, Defendants

Judge name: JOHN McBRYDE, District Judge

Case 4:18-cv-00801-A Document 135 Filed 08/02/19

Page 1 of

—

NORTHERN DISTRICT OF TEXAS

FILED
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION "
KHUE NGUYEN,
Plaintiff
VS .
ESTATE OF THIN THI TA
{HAI PHU NGUYEN AS HEIR AND
ADMINISTRATOR), ET AL.,
Defendants.

§
§
§
§
§
§
§
§
§
§
§

i

AUG ”2 2019
CLERK, U.S. DISTRICT COURT

By.

Deputy

i

NO. 4:18-CV-801-A

FINAL JUDGMENT

!
i

i
5

In accordance with the court's memorandum opinion and order

I
signed this date,

!

The court ORDERS, ADJUDGES, and DECREES that plaintiff, Khue
I
Nguyen, take nothing on his claims against defendants Hai Phu
Nguyen served as administrator of the Estate of Thin Thi Ta and
Thao Xuan Ta ("defendants") and that such claims be, and are
hereby, dismissed with prejudice.

I
$

?

i
i
t

The court further ORDERS, ADJUDGES, and DECREES that
defendants have and recover their court costs from plaintiff.

!

t
1

SIGNED August 2, 2019.

|

f
Is
i

I
i
s
!
!

I
|
I

Appendix E: District Court opinion, August 2, 2020

Court: United States District Court, Northern District of Texas, Fort Worth
Division
No. 4:18-CV-801-A
Parties: KHUE NGUYEN, Plaintiff
v.
ESTATE OF THIN THI TA (HAI PHU NGUYEN AS HEIR AND
ADMINISTRATOR) ET AL., Defendants

Judge name: JOHN McBRYDE, District Judge

1

!

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Pa ge

U.S. DISTRICT COURT
iioA'AfeRiflaaetlDn TlTiv- XAS

FILED

!
i

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

AUG -2 2019

CLP.RK, U.S. DISTRICT COURT
KHUE NGUYEN,

By.

§

Deputy

§

Plaintiff

§
§

VS.

§

NO. 4:18-CV-801-A

§

ESTATE OF THIN THI TA
(HAI PHU NGUYEN AS HEIR AND
ADMINISTRATOR), ETAL.,
Defendants.

§

§
§
§
§

MEMORANDUM OPINION AND ORDER
Came on for consideration the motion of defendants Hai Phu

!
I

Nguyen served as administrator of the Estate of Thin Thi Ta ("Hai
Phu") and Thao Xuan Ta for summary judgment.1 The court, having

i

I

considered the motion, the response of plaintiff, Khue Nguyen,
the reply,2 the record, and applicable authorities, as well as
the arguments1 at the hearing conducted June 25, 2019, finds that
the motion should be granted. The court further finds that
plaintiff's motion for nonrecognition of alleged Vietnamese
judgments and to strike and disregard portions of defendants'

i

Il
s
5
1

'These are the only defendants remaining in the action.
2Plaintiff filed a supplemental response in opposition to the motion for summary
judgment, which is in effect a sur-reply for which no leave was sought. Doc. 114.
3By order signed May 9,2019, the court gave notice to the parties that, if the motion for
summary judgment was still pending, it would hear the motion at a hearing set to consider a
separate motion. Pursuant to unavailability of one of the defendants, the hearing was reset and
conducted June 25, 2019. A purpose of the hearing was to clarify which facts were not genuinely
disputed. See Fed. R. Civ. P. 56(e). The court placed the parties under oath at the hearing.

\V

j?

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 2 of 15 PagelD 1089

brief should be denied. And, the court is denying plaintiff's
motion for leave to file supplemental briefing and evidence.
I.
Background and Plaintiff's Claims
On September 27, 2018, plaintiff filed his complaint in this
action, naming a number of defendants. Doc.4 1. By memorandum
opinion and order signed December 6, 2018, the court dismissed
plaintiff's claims against defendants Ngo Thi Ngoan ("Ngoan");
Hien The Ta ("Hien"), and Lai Xuan Ta {"Ta") for lack of personal
jurisdiction. Doc. 26. The dismissal of those claims was made
final by separate final judgment. Doc. 27. By order signed
February 1, 2019, the court dismissed plaintiff's claims against
defendant Hoa Thi Ta Le {"Hoa") for failure to comply with the
court's January 3, 2019 order regarding service of process. Doc.
37. The dismissal of those claims was made final by separate
final judgment. Doc. 38. And, by order and separate final

I

judgment signed July 3, 2019, the court dismissed the claims
against defendants Hai Phu Nguyen, Mai Tuyet Nguyen, Que Dang
Nguyen, and Anh Kim Nguyen, individually as heirs of Thin Thi Ta.

s
I
I

DOCS. 127 & 128.

(
i
4The “Doc.

” reference is to the number of the item on the docket in this action.
2

i<
I

!

I

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 3 of 15 PagelD 1090

In his complaint, plaintiff alleges:
In October 1982 Ms. Ha Thi Thu Thuy ("Thuy") and Mr. Ta Van
Viet ("Viet") agreed in writing to form a partnership known as
Snow White to manufacture and sell embroidery-craft products in
Ho Chi Minh City, Vietnam. Doc. 1 at PagelD5 4, f 3. Each partner
had a 50% ownership interest in Snow White. Id. at PagelD 5, f 9.
The partnership automatically renewed each year except if Viet
were to migrate to France to live with his sons. Id. In 1985,
Viet married his second wife, Ngoan. Id. ^ 11. In June 1989, Viet
died. Id. 1 12. In or around July 1989, Thuy paid a large amount

I

of gold to Ngoan and Hien buy out the partnership interest of
Viet's heirs and to allow Thuy to continue to operate the Snow
White business. Id. at PagelD 6, K 14. Thuy then owned 100% of
the Snow White partnership. Id.

15. Thuy continued the

si
I
1

partnership business with the consent of Viet's heirs. Id. ^ 16.
On or about November 2012, Thuy returned from a business trip to
find that Ngoan had taken over the manufacturing facility used by

s

I
Snow White. She had evicted the employees, removed the signage,

s

l

and placed the partnership assets in an unknown location. Id. f

I

19. Thuy made verbal demand on Ngoan for return of the property.
!

5The “PagelD_” reference is to the page number assigned by the court’s electronic filing
system and is used because plaintiff did not number the pages of the complaint.

i
i
i
i
i
i
i
i
i

3

I
I\
i

|

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 4 of 15 PagelD 1091

Id. H 20. Ngoan called the police to report that Thuy was
trespassing and Thuy was evicted as a result. Id. f 21.
On November 21, 2012, Thuy filed a lawsuit with the local
government (in Vietnam) seeking to recover possession of the Snow
White property and business assets from all defendants, who are
heirs of Viet. Id. ^ 23. Defendants executed notarized documents
to appoint Ngoan as their legal representative. Id. f 24. The
seizure of the realty and personal property and refusal to return
them caused Thuy extreme hardship and financial disability. Id.
26. In 2018, Thuy sold and assigned to plaintiff the Snow White
partnership, real estate, business assets, and claims the subject
!

of this action. Id. ^ 28.
Plaintiff sues defendants for breach of contract and for
wrongfully, illegally detaining partnership assets through aiding

;
!!

i

and abetting. He seeks to recover the personal property (business
assets) of Snow White or $553,648, the value of such property;

1
j

possession, occupation, and use of the real property used for
Snow White's business; and, damages for loss of use of the realty
until it is returned.
II.
Grounds of the Motion
Defendants urge four grounds in support of their motion.
First, the doctrine of res judicata bars plaintiff's claims.

4

!

Case 4:18-cv-00801-A Document 134 Filed 08/02/19 Page 5 of 15 PagelD 1092

Second, the claims are barred by limitations. Third, the claims
are barred by collateral estoppel. And, fourth, Hai Phu is not a
proper party. Doc. 80.
III.
Summary Judgment Principles
Rule 56(a) of the Federal Rules of Civil Procedure provides
that the court shall grant summary judgment on a claim or defense
if there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.

Fed. R. Civ.

P. 56(a); Anderson v. Liberty Lobby. Inc.. 477 U.S. 242, 247
(1986) .

The movant bears the initial burden of pointing out to

the court that there is no genuine dispute as to any material
fact.

Celotex Corn, v. Catrett. 477 U.S. 317, 323, 325 (1986).

The movant can discharge this burden by pointing out the absence
of evidence supporting one or more essential elements of the
nonmoving party's claim, "since a complete failure of proof
concerning an essential element of the nonmoving party's case
necessarily renders all other facts immaterial."

Id. at 323.

Once the movant has carried its burden under Rule 56(a), the
nonmoving party must identify evidence in the record that creates
a genuine dispute as to each of the challenged elements of its
case.

Id. at 324; see also Fed. R. Civ. P. 56(c)

("A party

asserting that a fact ... is genuinely disputed must support

5

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 6 of 15 PagelD 1093

the assertion by . . . citing to particular parts of materials in
the record . . . .").

If the evidence identified could not lead

a rational trier of fact to find in favor of the nonmoving party
as to each essential element of the nonmoving party's case, there
is no genuine dispute for trial and summary judgment is
appropriate.

Matsushita Elec. Indus. Co. v. Zenith Radio Corn..

475 U.S. 574, 587, 597 (1986).

In Mississippi Prot. & Advocacy

Svs., Inc, v. Cotten. the Fifth Circuit explained:
Where the record, including affidavits,
interrogatories, admissions, and depositions could not,
as a whole, lead a rational trier of fact to find for
the nonmoving party, there is no issue for trial.
929 F.2d 1054, 1058 (5th Cir. 1991).
The standard for granting a motion for summary judgment is
the same as the standard for rendering judgment as a matter of
law.6

Celotex Corp.

477 U.S. at 323.

If the record taken as a

whole could not lead a rational trier of fact to find for the
non-moving party, there is no genuine issue for trial.
Matsushita. 475 U.S. at 597; see also Mississippi Prot. &
Advocacy Svs.

929 F.2d at 1058.

6In Boeine Co. v. Shipman. 411 F.2d 365, 374-75 (5th Cir. 1969) (en banc), the FifthCircuit explained the standard to be applied in determining whether the court should enter
judgment on motions for directed verdict or for judgment notwithstanding the verdict.
6

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 7 of 15 PagelD 1094

IV.
Undisputed Facts
The record establishes the following undisputed facts:
Plaintiff is the son of Thuy. He attended proceedings in
Vietnam when his mother sued Ngoan and other heirs of Viet toobtain return of Snow White property. He appeared as "Defender of
Rights and Legal Interests" of his mother. Plaintiff is the
successor in interest to his mother with regard to Snow White.
On June 2, 2017, in No. 678/2017/DS-ST, the People's Court
of Ho Chi Minh City issued a judgment reciting that Thuy did not
meet her burden of proof with regard to the real property used as
the Snow White shop house and that the claims for damages were
barred by limitations. Doc. 82, Ex. 1.
On June 11, 2018, in No. 124/2018/DS-PT, the Superior
People's Court in Ho Chi Minh City issued a judgment affirming
the judgment of the trial court. Doc. 82, Ex. 2.
Although plaintiff disagrees that the written judgments
submitted by defendants are the same as announced in open court,
he does not dispute that his mother lost her lawsuit in Vietnam
;

and the appeal therefrom.7

7The court notes that plaintiff has had ample opportunity to provide the correct judgments
if they exist. That he has not provided another version or sought an extension of time in which to
do so is telling.
7

1

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 8 of 15 Page! D 1095

V.
Analysis
A.

Res Judicata
The doctrine of res judicata is a

M \

venerable legal canon'

that insures the finality of judgments and thereby conserves
judicial resources and protects litigants from multiple
lawsuits." Procter & Gamble Co. v. Amwav Coro.

376 F.3d 496, 499

(5th Cir. 2004) (quoting United States v. Shanbaum. 10 F.3d 305,
310 (5th Cir. 1994)). Res judicata bars the litigation of claims
that either have been litigated or should have been raised in an
earlier suit. Test Masters Educational Servs.. Inc, v. Singh. 428
F.3d 559, 571 (5th Cir. 2005). Res judicata is appropriate if:
(1) the parties are identical or in privity;

(2) the judgment in

the prior action was rendered by a court of competent
jurisdiction; (3) the prior action was concluded by a final
judgment on the merits; and (4) the same claim or cause of action
was involved in both suits. Id.; Shanbaum. 10 F.3d at 310.
i

In determining whether the same claims or causes of action
are brought, the Fifth Circuit has adopted the transactional .
test, examining whether the claims arise from a "common nucleus
of operative facts." See Matter of Howe. 913 F.2d 1138, 1144 (5th

;

Cir. 1990) ("[T] he critical issue in not the relief requested or

I
1
8
i
i

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 9 of 15 PagelD 1096

the theory asserted but whether plaintiff bases the two actions
on the same nucleus of operative facts.").
In this case, the test is met. Plaintiff is in direct
privity with Thuy and is her successor in interest. Amstadt v.
United States Brass Corn., 919 S.W.2d 644, 653 (Tex. 1996). The
heirs of Viet were described as defendants in the Vietnam case.
Plaintiff himself pleaded that the heirs signed notarized
documents authorizing Ngoan to appear on their behalf. And the
judgments mention that the heirs took the same position as Ngoan.
Defendants do not argue that they are not bound by the Vietnamese
judgment. Plaintiff cannot make that argument for them.

Further,

defendants do not dispute that the Vietnam judgment is binding.
The prior judgment was rendered by a court of competent
jurisdiction. Thuy chose the court. Plaintiff can hardly argue
that it was not competent to render the judgment. The prior
action was concluded by final judgment on the merits. And,
despite plaintiff's arguments to the contrary, the same claims
are at issue. This suit, like the prior suit brought by his
mother, seeks to recover the property of Snow White and damages

8

The argument is nonsensical in any event. Thuy sued for the return of real and personal
property formerly owned by Viet's heirs that she alleged they sold to her and the Vietnamese
court determined that she was not entitled to prevail. Plaintiff cannot go around tire world suing
different heirs in different venues hoping for a different outcome. Plaintiff pleaded that all the
heirs joined in selling the Snow White property to Thuy. The outcome has to be the same as to
each of them.
9

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 10 of 15 PagelD 1097

for property that cannot be returned. The same facts and
transactions underlie the various legal theories asserted. Jartnon
v. Houston Indep. Sch. Dist.

805 P. Supp. 24, 26 (S.D. Tex.

1992) .9
Plaintiff devotes significant attention to the process for
validating and obtaining recognition of foreign judgments. Doc.
90 at 2-8. This is not a case where the plaintiff is seeking to
enforce a foreign money judgment against defendants. Nor is it a
case where defendants are seeking to recover money from
plaintiff. Rather, plaintiff chose to bring the lawsuit here and
defendants are simply pointing out that plaintiff's predecessor
has already had her opportunity to prove her claims against them.
Plaintiff cites no authority for the proposition that res
judicata can only be established in the state of his own
citizenship following the process of the Uniform Foreign Country
Money Judgment Recognition Act and the court is aware of none.
B.

Limitations
Even if the claims were not barred by res judicata.

limitations ran long ago on the claims plaintiff asserts here.
Under Texas law, limitations for a contract action is four years
from accrual of a cause of action. Tex. Civ. Prac. & Rem. Code

91he court need not reach the issue of collateral estoppel.
10

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

i

Page 11 of 15 PagelD 1098

§16.004(a).10 A breach of contract claim accrues when the
contract is breached. Stine v. Stewart. 80 S,W.3d 586, 592 (Tex.
2002). A breach occurs when a party fails or refuses to do
something it promised to do. Id.; Caotstone Healthcare Equip.
Servs., Inc, ex rel. Health Svs. Grp., L.L.C. v. Quality Home
Health Care, Inc., 295 S.W.3d 696, 699 (Tex. App.-Dallas 2009,
pet. denied).
Plaintiff alleges that defendants breached the contract
entered into in 1989 to buy out the Snow White interest owned by
Viet's heirs.

(Plaintiff confusingly alleges that defendants also

breached the contract his mother entered into with Viet in 1982,
claiming that the heirs had an obligation under Vietnamese law to
perform the contract after Viet's death.) In any event, the
breach occurred (or his mother discovered the occurrence) in 2012
when Thuy returned to find that Ngoan had taken over the Snow.
White property, locking Thuy out and refusing to return the
property to her. Obviously, Thuy understood that she had the
right to seek judicial relief at that point, as that is what she
did, filing a lawsuit in Vietnam. See Provident Life & Accident
Ins. Co. v. Knott. 128 S.W.3d 211, 221 (Tex. 2003); PPG Indus..
Inc, v. JMB/Houston Ctrs. Partners Ltd. P’ship. 146 S.W.3d 79,

10Plaintiff recognizes that a two-year limitations period applies to Ms other claims. Doc.
90 at 26.
11

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 12 of 15 PagelD 1099

93-94 (Tex. 2004); Moonev v. Harlin, 622 S.W. 2d 83, 85 (Tex.
1981). Plaintiff himself admits that the breach occurred in
November 2012 and that Thuy's contract claim accrued at that
time. Doc. 90 at 24. Plaintiff has not established any genuine
issue of material fact that would support a claim of tolling.
With regard to limitations, plaintiff seems to be arguing
that Vietnamese law should apply. See Doc. 130. In Texas,
statutes of limitation are procedural. Baker Hughes. Inc, v. Keco
R. & D.■ Inc.. 12 S.W.3d 1, 4 (Tex. 1999). A federal court,
sitting in diversity, applies the forum state's statutes of
limitation and accompanying tolling rules. Vaucrht v. Showa Denko
K.K.. 107 F.3d 1137, 1145 (5th Cir. 1997)(citing Walker v. Armco

!

Steel Corp,. 446 U.S. 740, 750-53 (1980)). Accordingly, the court

!

need not concern itself with decyphering Vietnamese law in this
I

regard.
C.

Proper Party
Defendant Hai Phu maintains that he is not a proper party to

this action since there is not and has never been an
administration of the Estate of Thin Thi Ta, his deceased wife.
Plaintiff does not disagree. Instead, he argues misnomer and
misidentification, neither of which applies here.

i
i
12

s
!

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

Page 14 of 15 PagelD 1101

the certifications, he does not dispute that his mother lost the
lawsuit in Vietnam. Instead, the motion primarily addresses why
the judgments should not be given full faith and credit by this
court. Among other things, plaintiff argues that the Vietnamese
courts lacked jurisdiction, that recognition of the judgments
would be repugnant to Texas policies, and that Vietnamese law is
contrary to the community property and business laws of Texas.
Doc. 87 at 4-9. At the hearing, plaintiff made plain {as he does
in the motion) that the reason he is pursuing this lawsuit is
that his mother lost everything overnight in November 2012 and
that she should be compensated for her loss despite the fact that
the Vietnamese courts denied her the relief she sought. Id. at 8.
That plaintiff disagrees with the conclusions reached by the
Vietnamese courts is not a reason to grant the relief he seeks.
VI.
Order
The court ORDERS that plaintiff's motion for nonrecognition
of alleged Vietnamese judgment and to strike be, and is hereby,
denied.
The court further ORDERS that plaintiff's motion for leave
to file supplemental briefing be, and is hereby, denied.
The court further ORDERS that defendants’ motion for summary
judgment be, and is hereby, granted; that plaintiff take nothing

14

Case 4:18-cv-00801-A Document 134 Filed 08/02/19

s
»

Page 15 of 15 PagelD 1102

on his claims against them; and that such claims be, and are
hereby, dismissed with prejudice.
SIGNED August 2, 2019.

United States District#Judge
/

;

I

1:
I

I%

•K

i

#

¥

I
I-

i
i
\
i

15

